No. 19·1221
INTHE

~upreme qtourt of tbe fflniteb ~tates:i
DERRICK LUCIUS WILLIAMS, JR.,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Supplemental Brief for Petitioner in Williams v. United

States, No. 19·1221, was served via electronic mail on all parties required:
Jeffrey B. Wall
Acting Solicitor General
DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: September 8, 2020

